I,

1/
April 18, 2019
Flavio Tamez
FCI #14812-379
P.O. Box 9000
Seagoville, TX 75159
Justice Samuel A. Auto, Jr.
United States-Supreme Court
1 First Street NE
Washington, DC 20543-0001
REQUEST FOR EXTENSION OF TIME
TO FILE PETITION FOR WRIT OF CERTIORARI
To the Honorable Justice Mr. Alito:
I intend to file a petition for a writ of certiorari in the
Supreme Court with respect to the judgment of the United States
Court of Appeals for the Fifth Circuit in Appeal No. 17-41165,
United States v. Flavio Tamez (USDC No. 2:17-cv-89, U.S. District
Court for the Southern District of Texas, Corpus Christi Division).
The appellate judgment was issued on 12/13/2018, see attached;
a timely petition for rehearing was denied on 2/19/2019, see
attached. Thus my petition in this Court is due 90 days thereafter, on or about 5/19/2019. This Court has jurisdiction to
consider said petition under 28 U.S.C. ยง1254(1).
A single Justice may extend the time to file by up to 60 days
for good cause, Supreme Court Rule 13. As the petitioner
(appellant below), I hereby respectfully request an extension
of 60 days. I have been seeking representation and to date am
unable to secure counsel to bring my petition in the Supreme
Court. My search is ongoing and I will file a petition prose
if need be. Therefore, I assert that there exists good cause
to allow the-;requested extension.
I hereby certify that on the date subscribed I served the U.S.
Solicitor General with a copy of this paper by placing same
with prison officials for mailing, first-class postage prepaid,
addressed to 950 Pennsylvania Ave. NW, Rm. 5614, DC....20530-0001.
Please advise the status of my request at the above address.
Thank you for your time and consideration in this important
matter.
Respectfully submitted,
Flavio Tamez
I hereby affirm, under penalty of perjury, that the
is true and correct. 28 U.S.C. ยง1746.
Executed on 41

J642O)0,

AIR 252019

